                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: Al3030050                                                                         Page 1 of 1



                 We reviewed a sequence of successive submitted proposals involving two declined
         collaborative proposals 1 and an awarded non-collaborative proposat2 in response to an allegation of
         plagiarism against a principal investigator (PI 13) on all three proposals. There was prior agreement
         between the contributors (PI 1 and PI 24) to the collaborative proposals that they would retain
         exclusive rights to their respective intellectual contributions.

                  When the PI 1 submitted the non-collaborative proposal to NSF, it contained text that was
         substantially similar to the previous joint submissions by PI 1 and PI 2. The text was primarily from
         sections describing PI 1's discrete role in the project. Those sections that related to PI 2's discrete
         role in the collaborative effort in the previous submissions did not appear in the awarded proposal.
         This constituted a substantial reduction in the scope of that component of the original project.

                 The awarded proposal consisted mostly of PI 1's work from the original collaboration and
         only a proof-of-concept study rather than the expansive proof-of-practice study proposed when PI 2
         was involved. The proof-of-concept study in the awarded proposal involves standard research
         models and protocols with otherwise insignificant overlap with the collaborative proposals.
         Therefore, there is insufficient substance to support further investigation of plagiarism (text, ideas,
         methods, or processes).

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
